CERTIFICATE OF COMPLIANCE
No:.
Ming Wei,
Petitioner.
v.
Commonwealth ofPennsylvania etal,
Respondent,
As required by Supreme Court Rule 33.1(h), I
certify that the petition for a writ of certiorari
contains 8,997 words, excluding the parts of the
petition that are exempted by Supreme Court Rule
33.1(d),
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on August 12, 2020

Ming Wei
3910 Silver Brook Dr.
Mechanicsburg, PA 17050
Phone: (717) 732 2040
Email: mingweiebct@hotmail.com

2

